UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1923

FOSTER LEE TARVER,
Appellant
v.
ATTORNEY GENERAL PENNSYLVANIA;
DAUPHIN COUNTY COURT OF COMMON PLEAS

(D.C. Civ. No. l-20-cv-00199)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
PIARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and SCIRICA*, Circuit Judges
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

* Judge Scirica’s vote is limited to Panel Rehearing Only.

September 10, 2020
DLD-306
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1923
FOSTER LEE TARVER, Appellant
v.

ATTORNEY GENERAL PENNSYLVANIA; ET AL.
(M.D. Pa. Civ. No. l-20-cv-00199)
Present: RESTREPO, PORTER AND SC1RICA, Circuit Judges
Submitted are:
(1)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1);

(2)

Appellees’ response; and

(3)

Appellant’s reply
in the above-captioned case.
Respectfully,
Clerk

________________________________ ORDER_________________________________
Tarver’s request for a certificate of appealability is denied. Jurists of reason would agree
without debate that the Magistrate Judge correctly concluded that Tarver’s rights under
the Due Process Clause and the Ex Post Facto Clause were not violated when he was
resentenced to a term of 40 years to life in prison (and then released on parole), for
essentially the reasons set forth in the Magistrate Judge’s opinion. See Miller-El v.
Cockrell. 537 U.S. 322, 327 (2003); Dobbert v. Florida. 432 U.S. 282, 297 (1977).
By the Court,
s/Anthony J. Scirica
Circuit Judge
Dated:
MB/cc:

\

October 6, 2020
Foster Lee Tarver
. Ronald Eisenberg, Esq.

A True Copy: 0 'tVs-l'1'1

.t
Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

\

UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
FOSTER LEE TARVER,

CIVIL NO. 1:20-CV-199

Petitioner,
v.
(Magistrate Judge Carlson)
PENNSYLVANIA ATTORNEY
GENERAL OFFICE, et al.,
C

<._________________________________ ■

Respondents.

MEMORANDUM OPINION
I.

Statement of Facts and of the Case
In this case we are asked, once again, to consider a legal saga which has

spanned nearly five decades. The petitioner, Foster Lee Tarver, was charged by state
authorities for his participation in a December 1968 homicidal crime spree, and in
June of 1969, Tarver, who was then a minor, was convicted of murder, robbery, and
other offenses. Tarver was initially sentenced to death, but later was resentenced to
life imprisonment without parole. The factual background of these offenses was
summarized by the Pennsylvania Supreme Court in its 1971 decision affirming
Tarver’s conviction and sentence in the following terms:
On the morning of December 2, 1968, Tarver, acting in concert with
Samuel Barlow, Jr., and Sharon Margarett Wiggins, executed an armed
robbery of the Market Street Branch of the Dauphin Deposit Trust
Company in Harrisburg. During the robbery, a customer in the bank
was shot both by Tarver and Wiggins. Six bullets entered his body
1

causing instant death. Following the robbery, the felons fled from the
scene in a Chevrolet Sedan which they stole on the same morning from
a parking lot in Harrisburg. About two blocks from the bank, the three
abandoned the Chevrolet Sedan and entered a Buick Sedan which they
had previously stolen in Pittsburgh and parked in this pre-arranged
location in Harrisburg to aid in their flight from arrest. While fleeing in
the Buick, the felons were apprehended by the police.and the money
stolen from the bank totaling Seventy Thousand ($70,000) Dollars was
recovered. The major portion of the money was found in the Buick
Sedan and about Forty-Five Hundred ($4500) Dollars was found in and
around the abandoned Chevrolet Sedan.
During the hearing to determine the degree of guilt, Tarver testified and
did not deny his participation in the commission of the robbery. Neither
did he deny shooting the victim of the homicide. However, he stated
that for some time before the day involved he became accustomed to
consuming quantities of cough syrups, known as Robitussin and
Romilar, sniffing glue and smoking marijuana, and that he had done
this a short time before the bank robbery, here involved; that as a result
he was ‘high’ when he entered the bank and his head was ‘spinning’;
that he had no intention of robbing the bank, and could not remember
committing the robbery or shooting anyone during its occurrence.
However, questioning elicited that he remembered stealing the Buick
in Pittsburgh; stealing the Chevrolet a short time before the robbery in
Harrisburg; parking the Buick under a bridge a short distance from the
bank; ‘thinking’ about robbing the bank; driving to the bank in the
Chevrolet and having three guns, two .32 Calibre revolvers and one .22
Calibre revolver in his coat pocket at the time; and, standing on a
counter while in the bank.
Commonwealth v. Tarver. 284 A.2d 759, 760-61 (1971).
Following this conviction, Tarver pursued multiple unsuccessful post­
conviction challenges and appeals. Thus, “[bjetween 1978 and 2010, [Tarver] filed
seven PCRA petitions, all of which were denied or dismissed.” Commonwealth v.
Tarver, No. 875 MDA 2018, 2019 WL 441006, at *1 (Pa. Super. Feb. 5, 2019).
2

Finally, after more than four decades of fruitless post-conviction litigation, a change
in the law relating to juveniles convicted of murder afforded Tarver some relief from
this mandatory life sentence. Specifically, the United States Supreme Court’s
decision in Miller v. Alabama, 567 U.S. 460 (2012), held that life sentences without
the possibility of parole for juvenile offenders like Tarver violated the Eighth
Amendment to the United States Constitution.
The Supreme Court’s decision in Miller, which was later made retroactive by
the Court in Montgomery v. Louisiana. 136 S. Ct. 718, 193 L. Ed. 2d 599 (2016),
inspired Tarver’s eighth post-conviction relief petition which sought re-sentencing
in light of the Eighth Amendment principles announced in Miller. This relief was
granted in state court. Specifically, on October 30, 2017 and again on May 3, 2018,
Tarver was re-sentenced in the Court of Common Pleas of Dauphin County to 40
years-to-life imprisonment on this murder conviction. (Doc. 1). Given the fact that
Tarver had served some 48 years in prison at the time of this re-sentencing, this
newly imposed sentence was tantamount to a time-served sentence and Tarver has
been released from custody. However, because Tarver was sentenced under
Peimsylvania’s indeterminate sentencing system to 40 years-to-life imprisonment,
he remained subject to a lifetime term of parole supervision. Thus, Tarver remains
under a state criminal justice sentence, albeit a sentence of parole supervision, as a
result of this re-sentencing for his role in this slaying.
3

Dissatisfied with this sentencing outcome, Traver appealed his sentence to the
Pennsylvania Superior Court arguing that this 40 years-to-life sentence which
provided for his immediate parole was somehow unlawful. At the same time, while
this state court appeal was pending, Tarver filed a federal habeas corpus petition
which we dismissed without prejudice as premature and unexhausted while his
appeal was pending in state court. Tarver v, Pennsylvania Bd. of Prob. & Parole. No.
3:18-CV-2071, 2018 WL 6933390, at *1 (M.D. Pa. Nov. 28, 2018), report and
recommendation adopted sub nom. Tarver v, PA Attorney Gen.. No. CV 18-2071
2019 WL 108852 (M.D. Pa. Jan. 4, 2019).
On February 5, 2019, the Pennsylvania Superior Court denied Tarver’s appeal
of his 40 years-to-life sentence and affirmed the sentence imposed upon the
petitioner. In doing so, the Superior Court found that: “the Pennsylvania Supreme
Court held in Commonwealth v. Batts. 640 Pa. 401, 163 A.3d 410 (2017) (‘Batts
II’), that juvenile offenders for whom the sentencing court deems life without parole
sentences inappropriate, ‘are subject to a mandatory maximum sentence of life
imprisonment as required by section 1102(a), accompanied by a minimum sentence
determined by the common pleas court upon resentencing[.]’ Id, at 421.”
Commonwealth v. Tarver, No. 875 MDA 2018, 2019 WL 441006, at *4 (Pa. Super.
Feb. 5, 2019). The Superior Court then went on to observe that:

4

[Tarver] suggests a maximum term of life imprisonment is
unconstitutional and affords him no meaningful opportunity for release.
[Tarver]’s argument misapprehends Pennsylvania’s sentencing
scheme.
Pennsylvania utilizes an indeterminate Sentencing scheme with a
minimum period of confinement and a maximum period of
confinement. “In imposing a sentence of total confinement the court
shall at the time of sentencing specify any maximum period up to the
limit authorized by law . . . .” 42 Pa.C.S.A. § 9756(a). See also
Commonwealth v. Saranchak. 544 Pa. 158, 675 A.2d 268, 277 n.17
(1996). Here, that maximum period is life imprisonment. Therefore, the
sentence imposed, with a maximum period of life, is lawful.
To the extent [Tarver] meant his minimum term is unconstitutional and
affords him no meaningful opportunity for release, we note “[t]he
maximum term represents the sentence imposed for a criminal offense,
with the minimum term merely setting the date after which a prisoner
may be paroled.” Martin v. Pennsylvania Bd. of Prob. and Parole. 576
Pa. 588, 840 A.2d 299,302 (2003). Here, the trial court noted that, upon
resentencing on May 3, 2018, [Tarver] was given “time credit from
December 2, 1968, to October 30, 2017, minus roughly five months[,]”
and thus, at the time of resentencing, he was eligible for parole. Trial
Court Opinion, filed 8/22/18. In fact, the trial court noted the “the
Pennsylvania Board of Probation and Parole [subsequently] sent a letter
[to the trial court] indicating that [ ] [Tarver] was released on parole”
after the credit for time served was awarded to [him]. Id., at 2 n.2.
Commonwealth v. Tarver. No. 875 MDA 2018, 2019 WL 441006, at *4 (Pa. Super.
Feb. 5, 2019). Concluding therefore that Tarver’s arguments on appeal were “wholly
frivolous”, id., the Superior Court denied this petition for further post-conviction
relief.
Tarver did not further appeal this decision in the Pennsylvania courts, but
instead filed this timely petition seeking federal habeas corpus relief. Tarver’s
5

current petition, while timely, seems unexhausted since it raises a single issue, a
claim based upon the Supreme Court’s decision in Bouie v. City of Columbia. 378
U.S. 347 (1964), that imposition of the maximum sentence of life imprisomnent in
conjunction with a 40-year minimum sentence which afforded the petitioner
immediate release on parole somehow denied Tarver due process. This claim never
appears to have been raised by Tarver in state court following his re-sentencing.
Moreover, Bouie, which addressed a due process vagueness challenge to a criminal
statute when that state statute was re-interpreted by the state courts after the
defendant’s conduct in order to encompass and criminalize the defendant’s conduct,
has no application to the instant case since Tarver cannot realistically claim that he
was not on notice for the past five decades that murder was a crime which exposed
him to penalties including a maximum sentence of up to life imprisonment.
This petition is now ripe for resolution. For the reasons set forth below, we
recommend that this petition be denied.
II.

Discussion
A.

State Prisoner Habeas Relief—The Legal Standard.

A state prisoner seeking to invoke the power of this Court to issue a writ of
habeas corpus must satisfy the standards prescribed by 28 U.S.C. § 2254, which
provides in part as follows:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district
court shall entertain an application for a writ of habeas corpus in behalf
6

of a person in custody pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitution or laws
or treaties of the United States.
(b)(1) An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be granted
unless it appears that—
(A) the applicant has exhausted the remedies available in the courts of
the State;
(2) An application for a writ of habeas corpus may be denied on the
merits, notwithstanding the failure of the applicant to exhaust the
remedies available in the courts of the State.
28 U.S.C. §2254 (a)and(b).
1.

Substantive Standards For Habeas Petitions

As this statutory text implies, state prisoners must meet exacting substantive
and procedural benchmarks in order to obtain habeas corpus relief. Federal courts
may “entertain an application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court only on the ground that he is in
custody in violation of the Constitution or laws or treaties of the United States.” 28
U.S.C. § 2254(a). By limiting habeas relief to state conduct which violates “the
Constitution or laws or treaties of the United States,” section 2254 places a high
thi eshold on the courts. Typically, habeas re lief will only be granted to state prisoners
in those instances where the conduct of state proceedings led to a “fundamental defect
which inherently results in a complete miscarriage of justice” or was completely
inconsistent with rudimentary demands of fair procedure. See, e.g.. Reed v. Farlev.
7

512 U.S. 339, 354 (1994). Thus, claimed violations of state law, standing alone, will
not entitle a petitioner to section 2254 relief, absent a showing that those violations
are so great as to be of a constitutional dimension. See Priester v. Vaughan. 382 F.3d
394, 401-02 (3d Cir. 2004).
2.

Deference Owed to State Court Rulings

These same principles which inform the standard of review in habeas petitions
and limit habeas relief to errors of a constitutional dimension also call upon federal
courts to give an appropriate degree of deference to the factual findings and legal
rulings made by the state courts in the course of state criminal proceedings. There are
two critical components to this deference mandated by 28 U.S.C. § 2254.
First, with respect to legal rulings by state courts, under section 2254(d),
habeas relief is not available to a petitioner for any claim that has been adjudicated
on its merits in the state courts unless it can be shown that the decision was either:
(1) “contrary to” or involved an unreasonable application of clearly established case
law; see 28 U.S.C. § 2254(d)(1); or (2) was “based upon an unreasonable
determination of the facts,” see 28 U.S.C. § 2254(d)(2). Applying this deferential
standard of review, federal courts frequently decline invitations by habeas petitioners
to substitute their legal judgments for the considered views of the state trial and
appellate courts. See Rice v. Collins. 546 U.S. 333, 338-39 (2006); see also Warren
v- Kyler, 422 F.3d 132, 139-40 (3d Cir. 2006); Gattis v. Snvder. 278 F.3d 222, 228
8

(3d Cir. 2002).
In addition, section 2254(e) provides that the determination of a factual issue
by a state court is presumed to be correct unless the petitioner can show by clear and
convincing evidence that this factual finding was erroneous. See 28 U.S.C. §
2254(e)(1). This presumption in favor of the correctness of state court factual findings
has been extended to a host of factual findings made in the course of criminal
proceedings. See, e.g., Maggio v. Fulford. 462 U.S. Ill, 117 (1983) (per curiam);
Demosthenes v. Baal, 495 U.S. 731, 734-35 (1990).
3.

Procedural Thresholds for Section 2254 Petitions.
a.

Exhaustion of State Remedies.

Furthermore, state prisoners seeking relief under section 2254 must also satisfy
specific, and precise, procedural standards. Among these procedural prerequisites is
a requirement that the petitioner “has exhausted the remedies available in the courts
of the State” before seeking relief in federal court. 28 U.S.C. § 2254(b). In instances
where a state prisoner has failed to exhaust the legal remedies available to him in the
state courts, federal courts typically will refuse to entertain a petition for habeas
corpus. See Whitney v. Horn. 280 F.3d. 240, 250 (3d Cir. 2002).
This statutory exhaustion requirement is rooted in principles of comity and
reflects the fundamental idea that the state should be given the initial opportunity to
pass upon and correct alleged violations of the petitioner’s constitutional rights.
9

O Sullivan v. Boerckel, 526 U.S. 838, 844 (1999). As the Supreme Court has aptly
observed, “a rigorously enforced total exhaustion rule” is necessary in our dual
system of government to prevent a federal district court from upsetting a state court
decision without first providing the state courts the opportunity to correct a
constitutional violation. Rose v. Lundv. 455 U.S. 509, 518 (1982). Requiring
exhaustion of claims in state court also promotes the important goal of ensuring that
a complete factual record is created to aid the federal courts in their review of a
section 2254 petition. Walker v. Vaughn. 53 F.3d 609, 614 (3d Cir. 1995). A
petitioner seeking to invoke the writ of habeas corpus, therefore, bears the burden of

"S'.

showing that all of the claims alleged have been “fairly presented” to the state courts,
I

W !
/

and the claims brought in federal court must be the “substantial equivalent” of those
presented to the state courts. Evans v. Court of Common Pleas. 959 F.2d 1227, 1231
(3d Cir. 1992); Santana v. Fenton. 685 F.2d 71, 73-74 (3d Cir. 1982). A petitioner
■

cannot avoid this responsibility merely by suggesting that he is unlikely to succeed
in seeking state relief, since it is well-settled that a claim of “likely futility on the
merits does not excuse failure to exhaust a claim in state court.” Parker v. Kelchner
429 F.3d 58, 63 (3d Cir. 2005).
B.

This Petition Should be Denied

These settled legal tenets dictate the outcome in this case. At the outset, with
respect to the claims now raised by the petitioner in federal court, it is evident that
10

the petitioner has not met section 2254’s exhaustion requirement.
The sole federal constitutional issue presented by Tarver in this federal habeas
corpus petition is his claim based upon the Supreme Court’s decision in Bouie v. City
of Columbia, 378 U.S. 347 (1964), that imposition of the maximum sentence of life
imprisonment in conjunction with a 40-year minimum sentence which afforded the
petitioner immediate release on parole somehow denied Tarver due process on
vagueness grounds because he was denied adequate notice that his conduct violated
the law and could expose him to the potential of life imprisonment. To the extent that
this is Tarver’s claim, this claim was never presented to the state courts. See
O’Sullivan v. Boerckeh 526 U.S. 838, 844-45 (1999) (finding that a petitioner
properly exhausts claims in state court “by invoking one complete round of the
State’s established appellate review process”); Lines v. Larkin. 208 F.3d 153, 160
(3d Cir. 2000) (“Petitioners who have not fairly presented their claims to the highest
state court have failed to exhaust those claims.”); Evans v. Court of Common Pleas.
Delaware County, Pa., 959 F.2d 1227, 1230 (3d Cir. 1992) (“A claim must be
presented not only to the trial court but also the state’s intermediate court as well as
to its supreme court.”); Blasi v. Attv. Gen, of Pa.. 30 F. Supp. 2d 481, 486 (M.D. Pa.
1998) (“The exhaustion doctrine requires the defendant to present the issue to any
intermediate state appellate court, if applicable, and to the state’s supreme court.”).
Thus, this claim is unexhausted and cannot afford federal habeas corpus relief to
11

Tarver.
In any event, Tarver’s claim fails on its merits. The sole case that Tarver relies
upon to support this due process vagueness claim, Bouie v, City of Columbia. 378
U.S. 347 (1964), was a function of a particular place and time in our nation’s history
when civil rights jgjhvjsts who were participating in a peaceful sit-in at a restaurant
in South Carolina were convicted of trespass based upon a state court re-interpretation
---- --------------- -----

----------

-Sethis trespass statute which was adopted after-the-fact, extended the state stafufi'to
^

___------- ^

their conduct, and criminalized the defendant’s conduct after the sit-in had occurred
/v?

_______________ jiSSr-

The Supreme Court held that this post hoc state court extension of a state criminal

Hmj\i

ir.

statute to embrace behavior that was previously not encompassed by the law violated
due process stating that:
There can be no doubt that a deprivation of the right of fair warning can
result not only from vague statutory language but also from an
unforeseeable and retroactive judicial expansion of narrow and precise
statutory language. As the Court recognized in Pierce v. United States.
314 U.S. 306, 311, 62 S.Ct. 237,239, “judicial enlargement of a criminal
act by interpretation is at war with a fundamental concept of the common
law that crimes must be defined with appropriate definiteness.”
Bouie v. City of Columbia. 378 U.S. 347, 352, 84 S. Ct. 1697, 1702, 12 L. Ed. 2d
894 (1964).
Understood in this fashion, the Supreme Court’s decision in Bouie simply does
not afford Tarver any right to relief. Indeed, Tarver’s case stands in stark contrast to
the situation that confronted the Court in Bouie. Unlike the defendants in Bouie.
12

v

Tarver cannot claim that he had no notice in 1968 when he participated in the
execution of an innocent bank customer that murder was illegal and could result in a
life sentence. The criminal nature of murder, and the severe penalties for that crime,
were fixed and immutable elements of the law when Tarver killed his victim. Further,
Bouie has no application here where the sentence recently imposed upon Tarver of
40 years-to-life imprisonment was authorized under state law and was highly
favorable to Tarver since it resulted in his immediate release on parole.
Yet, while the Supreme Court’s decision in Bouie affords Tarver no relief,
cases construing the Court’s decision in Miller v. Alabama, confirm that that the 40
years-to-life sentence actually imposed upon Tarver is lawful and proper. Following
the seminal decision in Miller, numerous courts have had occasion to examine
whether the re-sentencing of juvenile offenders to serve a minimum sentence of a
term of years under an indeterminate sentencing system violates the Constitution.
Those courts have consistently held that such sentences are consistent with Miller
and do not violate the defendant’s constitutional rights, provided that the length of
these sentences are not tantamount to life in prison without the possibility of parole.
See e.g„ McCain v. Frakes, No. 8:18-CV-190, 2019 WL 2086001, at *3 (D. Neb.
May 13,2019); Jensen v. Young, No. 4:18-CV-04041-RAL, 2019 WL 653062, at *8
(D.S.D. Feb. 15, 2019); Garza v. Frakes. No. 8:17-CV-474,2018 WL 1710183, at *4
(D. Neb. Apr. 9, 2018).
ij

Given this rising tide of case law, Tarver’s Miller claims fail for a single,
simple reason: He was re-sentenced to a minimum term of years and was in fact
promptly paroled by state authorities following his re-sentencing. Thus, Tarver has
received precisely the relief contemplated by Miller and its progeny, the opportunity
for favorable parole consideration following his juvenile murder conviction.
III.

Conclusion
Accordingly, for the foregoing reasons, upon consideration of this Petition for

Writ of Habeas Corpus, the petition will be DENIED, and a certificate of
appealability will not issue as Tarver has not demonstrated “a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see also Buck v. Davis.
137 S.Ct. 773-75 (2017); Miller-El v. Cockrell. 537 U.S.322, 335-36 (2003); Slack
v. McDaniel. 529 U.S. 473, 484 (2000).
An appropriate order follows.
S ubmitted this 31st day of March 2020.
S/Martin C. Carlson
Martin C. Carlson
United States Magistrate Judge

14

• • J-S81044-18

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.
FOSTER TARVER
Appellant

No, 875 MDA 2018

Appeal from the Judgment of Sentence Entered May 3, 2018
In the Court of Common Pleas of Dauphin County Criminal Division at
No(s): CP-22-CR-0000043-1968
BEFORE:

STABILE, J., DUBOW, J., and STEVENS*, P.J.E.

MEMORANDUM BY STEVENS, P.J.E.:

FILED FEBRUARY 05, 2019

Appellant, Foster Tarver, appeals from the May 3, 2018, judgment of
sentence entered in the Court of Common Pleas of Dauphin County following
the trial court's grant of PCRA1 relief and resentencing of Appellant on his firstdegree murder conviction pursuant to Montgomery v. Louisiana,

U.S.

, 136 S.Ct. 718 (2016), which held that state courts are required to grant
retroactive effect to new substantive rules of federal constitutional law, such
as Miller v. Alabama, 567 U.S. 460, 132 S.Ct. 2455 (2012).

Miller held

unconstitutional mandatory sentences of life imprisonment without the
possibility of parole for offenders, like Appellant, who were under eighteen
years of age at the time of their crimes. Additionally, Appellant's counsel has

1 Post Conviction Relief Act ("PCRA"), 42 Pa.C.S.A. §§ 9541-9546.
*

Former Justice SDeciallv assiqned to the Superior Court.

J-S81044-18

filed a petition seeking to withdraw his representation, as well as a brief
pursuant to Anders v. California, 386 U.S. 738, 87 S.Ct. 1396 (1967), and
Commonwealth v. Santiago, 602 Pa. 159, 978 A.2d 349 (2009) (hereinafter
"Anders brief").

After a careful review, we grant counsel's petition to

withdraw and affirm Appellant's judgment of sentence.
The relevant facts and procedural history are as follows: On December
2, 1968, Appellant, who was then seventeen years old, acting in concert with
Samuel Barlow, Jr., and Sharon Margarett Wiggins, executed an armed
robbery of a bank in Harrisburg. During the robbery, Appellant and Wiggins
shot a bank customer, causing his death. The trio fled from the bank in a
stolen vehicle, but they were apprehended by the police. The money stolen
from the bank, totaling $70,000.00, was recovered.
On June 2, 1969, Appellant entered a general plea of guilty to murder,
and a three-judge panel conducted a degree-of-guilt hearing.

The panel

determined that Appellant was guilty of first-degree murder based on a finding
that he perpetrated the killing in furtherance of a robbery.

The trial court

imposed a sentence of death; however, Appellant filed a post-sentence
motion, which the trial court granted. Thus, on February 19, 1971, the trial
court vacated its original sentence and imposed a sentence of life in prison
without the possibility of parole. Thereafter, our Supreme Court affirmed the
judgment of sentence.

- 2 -

J-S81044-18
Between 1978 and 2010, Appellant filed seven PCRA petitions, all of
which were denied or dismissed.
On July 16, 2012, he filed his eighth PCRA petition wherein he averred
his sentence of life in prison without the possibility of parole was
unconstitutional under Miller, supra. Counsel filed an amended petition
arguing that Appellant was entitled to relief under Miller, supra, as well as
Montgomery, supra. The PCRA court granted relief on this claim based on
the "new constitutional right" exception to the PCRA's time-bar. On November
1, 2017, the trial court resentenced Appellant, who was represented by
counsel, to forty years to life imprisonment for first-degree murder.

On

November 24, 2017, despite still being represented by counsel, Appellant filed
a pro se notice of appeal to this Court.
The trial court forwarded Appellant's notice of appeal to counsel, who
failed to file a docketing statement on behalf of Appellant. Accordingly, by
order entered on February 6, 2018, this Court filed an order remanding the
matter to the trial court for a period of thirty days for a determination as to
whether counsel had abandoned Appellant and for the taking of any further
action as required to protect Appellant's right to appeal. This Court retained
jurisdiction.
On March 16, 2018, Appellant filed a pro se "Motion to Modify Sentence
Nunc Pro Tunc" in which he sought credit for time served. On March 28, 2018,

- 3 -

1044-18

che trial court entered a "resentencing order" in which it purported to award
credit for time served.
By order entered on April 9, 2018, this Court held the trial court lacked
jurisdiction when it entered its

resentencing order on March 28, 2018, and

thus, this Court "stayed" the resentencing order.

We further remanded to the

trial court to determine whether Appellant wished to proceed
pro se pursuant to Commonwealth
(1988).

with counsel or

Grazier, 552 Pa. 9, 713 A.2d 81

Following a Grazier hearing, the trial

court notified this Court on
April 19, 2018, that Appellant wished to proceed with his
counsel for purposes
of appellate review. On May 1, 2018, counsel filed
a notice to withdraw and
discontinue Appellant's appeal.
On May 3, 2018, apparently in response to Appellant's March
16, 2018,
motion, the proceedings for which this Court "
stayed," the trial court granted
Appellant's request for resentencing and awarded credit for time
served.2 This
timely, counseled appeal followed
on May 25, 2018. The trial court did not
direct Appellant to file a Pa.R.A.P. 1925(b) statement,
and consequently, no

the' te0gae,i^atoSfSUseeSnteXt0 whfch'V™

PreSent a challen9e

Commonwealth v. Beck 848
0C0°?n,IZable under the PCRA.
concerning the legality of sentence are rogn®LblePu'ndTJhe20pc4WliCi]fhUeS

1 2oin7, ^7TTeVnceViT *"** ^ ^
Appellant's pro se "Motion to Modify Sente "ceWuncPro Tunc*" the^ ‘0 ^
for which this Court "staved " as a
dpda™
Tunc> the Proceedings
and awarding credit for time’served.
Y
Petltl0n' thus granting relief
- 4 -

31044-18

such statement was filed.

The trial court filed a brief Pa.R.A.P. 1925(a)

opinion. On November 7, 2018, counsel filed i
in this Court a petition seeking
to withdraw his representation, as well as an Anders brief. Appellant filed
no
further submissions either pro se or through privately-retained counsel.
Prior to addressing any issue raised on appeal, we must first resolve
counsel s petition to withdraw. Commonwealth

v. Goodwin, 928 A.2d 287,

290 (Pa.Super. 2007) (en banc). There are procedural
requirements imposed upon an attorney who seeks

and

briefing

to withdraw on appeal

pursuant to which counsel must:
1) petition the court for leave to withdraw stating that after
makmg a conscientious examination of the record, counsel has
nf thrnh'n6f rth3u the appeal would be frivolous; 2) furnish a copy
°[ t<:hhe0bhnef 1° the defendant; and 3) advise the defendant that he
or she has the right to retain private counsel
or raise additional
arguments that the defendant deems worthy of the court's
attention.
Common wealth v. Cartrette, 83 A.3d 1030,
1032 (Pa.Super. 2013) (en
banc) (citation omitted). In addition,

our Supreme Court in Santiago stated

that an Anders brief must:
fusummarV of the procedural history and facts with
citations to the record; (2) refer to anything in the record that
counsel beheves arguably supports the appeal; (3) set forth
ounsel s conclusion that the appeal is frivolous; and (4) state
counsels reasons for concluding that the
^
Cate
appeal
is
frivolous,
Counsel should articulate the relevant facts
of record, controlling
case law, and/or statutes on point that have led to the conclusion
that the appeal is frivolous.
Santiago, 602 Pa. at 178-79, 978 A.2d at 361.

Counsel also must provide

the appellant with a copy of the Anders brief, together with
a letter that
- 5 -

J-S81044-18

advises the appellant of his or her right to "(1) retain new counsel to pursue
the appeal; (2) proceed pro se on appeal; or (3) raise any points that the
appellant deems worthy of the court's attention in addition to the points raised
by counsel in the Anders brief." Commonwealth v. Nischan, 928 A.2d 349,
353 (Pa.Super. 2007) (citation omitted). Substantial compliance

with these

requirements is sufficient. Commonwealth v. Wrecks, 934 A.2d 1287

1290

(Pa.Super. 2007).
Herein, counsel contemporaneously filed his petition to withdraw as
counsel and Anders brief. In his petition, counsel states that after a thorough
and conscientious examination of the record he has determined that

an appeal

herein is wholly frivolous. Additionally, in accordance with Nischan,

counsel

has mailed Appellant a copy of the Anders brief and a letter informing him
that: (1) he has the right to retain new counsel; (2) he may proceed further
with his case pro se; and (3) he may raise any points that he deems worthy
of the this Court's attention. Counsel attached his conforming correspondence
to his petition to withdraw. See Commonwealth v. Milfisock, 873 A.2d 748
(Pa.Super. 2005).
In the Anders brief, counsel provides a summary of the facts and
procedural history of the case, refers to evidence of record that might arguably
support the issue raised on appeal, provides citations to relevant

case law,

and states his reasoning and conclusion that the appeal is wholly frivolous.
Accordingly, counsel has substantially complied with all

- 6 -

of the technical

•

J-S81044-18

requirements of Anders and Santiago. Therefore, we proceed to examine
the issue counsel identified in the Anders brief and then conduct "a full
examination of all the proceedings, to decide whether the case is wholly
frivolous."

Commonwealth v. Yorgey, 188 A.3d 1190, 1195 (Pa.Super.

2018) (en banc) (quotation omitted).
In the Anders brief, counsel raises the issue of whether the trial court's
imposition of forty years to life imprisonment for Appellant's first-degree
murder conviction is an illegal sentence. Appellant claims there is no authority
for the trial court's sentence.
Appellant's claim presents a challenge to the legality of his sentence.
"Issues relating to the legality of a sentence are questions of law. Our standard
of review over such questions is de novo and our scope of review is plenary."
Commonwealth v. Cardwell, 105 A.3d 748, 750 (Pa.Super. 2014) (brackets
and ellipses omitted).
In Miller, supra, the United States Supreme Court held that the Eighth
Amendment's prohibition on cruel and unusual punishment forbids the
mandatory imposition of a life without parole sentence for a juvenile offender
convicted of homicide.3 Thereafter, in Montgomery, the Court held Miller

3 We note the High Court did not foreclose sentencing courts from ever
imposing terms of life without parole upon juvenile offenders. Miller, supra.
Instead, it required sentencing courts to consider a juvenile's immaturity and
capacity for change, and to refrain from imposing a life without parole term
except in extreme cases where the sentencing court determines that the

- 7 -

J-S81044-18

announced a substantive rule of constitutional law that must be applied
retroactively. See Montgomery, 136 S.Ct. at 736.
In

order to

correct Pennsylvania's

consequently

unconstitutional

sentencing scheme, the Legislature enacted 18 Pa.C.S.A. § 1102.1. The
statute provides that offenders who were between the ages of fifteen and
seventeen at the time of their crimes and convicted of first-degree murder
after June 24, 2012, must be sentenced to a maximum term of life
imprisonment. See 18 Pa.C.S.A. 1102.1(a)(1). The minimum term for that
class of offender is 35 years. See id.
The new statute did not address the resentencing of juvenile offenders
convicted of murder and sentenced to life without parole before June 24, 2012.
However, the Pennsylvania Supreme Court held in Commonwealth v. Batts,
640 Pa. 401, 163 A.3d 410 (2017) ("Batts II"), that juvenile offenders for
whom the sentencing court deems life without parole sentences inappropriate,
"are subject to a mandatory maximum sentence of life imprisonment as
required

by

section

1102(a),

accompanied

by

a

minimum

sentence

determined by the common pleas court upon resentencing[.]" Id. at 421.
The Court found that in fashioning a minimum sentence, courts "should be
guided by the minimum sentences contained in section 1102.1(a)[.]" Id. at

juvenile is incapable of rehabilitation. See id. In any event, in the case sub
judice, Appellant was resentenced to forty years to life in prison, and thus the
trial court's sentence permits parole.
- 8 -

. '

J-S81044-18

458. In doing so, the Batts II Court "expressly rejected the claim...that there
is no legislatively authorized sentence for juveniles convicted of first-degree
murder prior to 2012."

Commonwealth v. Melvin, 172 A.3d 14, 21

(Pa.Super. 2017) (citation omitted).
Here, Appellant was convicted of first-degree murder and sentenced to
life without the possibility of parole in 1971. Appellant was ultimately
resentenced in 2018, following Miller, Montgomery, and Batts II, to a term
of forty years to life imprisonment.
We find that Batts II disproves Appellant's contention that the
sentencing court lacked authority to impose a term of forty years to life
imprisonment. BattsII explicitly directed courts to use 18 Pa.C.S.A. § 1102.1
as a guideline for resentencing juvenile offenders. Further, the Pennsylvania
Constitution gives the Pennsylvania Supreme Court "the power to prescribe
general rules governing practice, procedure and the conduct of all courts as
long as such rules neither abridge, enlarge nor modify the substantive rights
of any litigant[.]" Batts II, 163 A.3d at 449 (quoting Pa. Const, art. V, § 10).
Thus, the trial court had the authority to resentence Appellant pursuant to

Batts II.

Further, Batts II required the court to sentence Appellant to a

mandatory maximum of life imprisonment. See id. at 458.

See also

Commonwealth v. Seskey, 170 A.3d 1105, 1109 (Pa.Super. 2017).

-9 -

• oi.y

L'l. ( V*

. ' J-S81044-18

Appellant

suggests

a

maximum

term

of

life

imprisonment

is

unconstitutional and affords him no meaningful opportunity for release.
Appellant's argument misapprehends Pennsylvania's sentencing scheme.
Pennsylvania utilizes an indeterminate sentencing scheme with a
minimum period of confinement and a maximum period of confinement.

"In

imposing a sentence of total confinement the court shall at the time of
sentencing specify any maximum period up to the limit authorized by law...."
42 Pa.C.S.A. § 9756(a). See also Commonwealth v. Saranchak, 544 Pa.
158, 675 A.2d 268, 277 n.17 (1996).

Here, that maximum period is life

imprisonment. Therefore, the sentence imposed, with a maximum period of
life, is lawful.
To the extent Appellant meant his minimum term is unconstitutional and
affords him no meaningful opportunity for release, we note "[t]he maximum
term represents the sentence imposed for a criminal offense, with the
minimum term merely setting the date after which a prisoner may be paroled."
Martin v. Pennsylvania Bd. of Prob. and Parole, 576 Pa. 588, 840 A.2d
299, 302 (2003). Here, the trial court noted that, upon resentencing on May
3, 2018, Appellant was given "time credit from December 2, 1968, to October
30, 2017, minus roughly five months[,]" and thus, at the time of resentencing,
he was eligible for parole. Trial Court Opinion, filed 8/22/18. In fact, the trial
court

noted

the

"the

Pennsylvania

Board

of

Probation

and

Parole

[subsequently] sent a letter [to the trial court] indicating that [] Appellant was

- 10 -

4 • - J-S81044-18
released on parole" after the credit for time served was awarded to Appellant.
Id. at 2 n.2.
After examining the issue contained in the Anders brief, we concur with
counsel's

assessment that the appeal is wholly frivolous. “Furthermore, after

conducting a

full examination of all the proceedings as required pursuant to

Anders, we discern no non-frivolous issues to be raised on appeal." Yorgey,
188 A.3d at 1195. Thus, we grant counsel's petition to withdraw and affirm
Appellant's judgment of sentence.
Petition to withdraw as counsel granted. Judgment of sentence affirmed.

Judgment Entered.

Joseph D. Seletyn, Es<q2
Protho notary

Date: 02/05/2019

- 11 -

